TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  The Office of Professional Responsibility
                Does Not Always Ensure Enrolled Agents Are
                Qualified, and System Limitations Prevented
                 Identification of Ineligible Representatives



                                      September 29, 2006

                              Reference Number: 2006-10-170




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information
 3(d) = Identifying Information - Other Identifying Information of an Individual or Individuals


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 29, 2006


 MEMORANDUM FOR DIRECTOR, OFFICE OF PROFESSIONAL RESPONSIBILITY

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Office of Professional Responsibility Does
                             Not Always Ensure Enrolled Agents Are Qualified, and System
                             Limitations Prevented Identification of Ineligible Representatives
                             (Audit # 200510039)

 This report presents the results of our evaluation of the effectiveness of the Office of
 Professional Responsibility’s (OPR) administration of the Enrolled Agent (EA) Practitioner
 Program.

 Impact on the Taxpayer
 An EA is a Federally authorized tax practitioner who has technical expertise in the field of
 taxation. An EA may represent a taxpayer at hearings or meetings with the Internal Revenue
 Service (IRS) to resolve tax liabilities and other tax obligations and prepare and file documents
 for a taxpayer. The OPR does not have consistent criteria for issuing EA licenses, ensuring
 ethical behavior of the EAs, or identifying EAs who are no longer eligible to represent taxpayers.
 As a result, taxpayers do not have assurance that EAs are eligible to represent them before the
 IRS, have a broad range of technical skills, are compliant with their own tax obligations, and
 have not been convicted of a felony.

 Synopsis
 Because EAs can represent taxpayers before the IRS, it is important for the OPR to ensure
 taxpayers are protected from EAs who have not complied with their own Federal tax obligations
 or who may have criminal records. However, although the OPR verifies tax compliance when
 individuals submit their initial EA applications, it relies on the EAs’ self-disclosure statements of
 compliance with Federal tax obligations and any criminal record when processing applications
 for renewal of EA authorizations. Our review of a random sample of 51 EAs who had renewed
              The Office of Professional Responsibility Does Not Always Ensure
              Enrolled Agents Are Qualified, and System Limitations Prevented
                         Identification of Ineligible Representatives



their licenses during 2005 determined that 3 (5.88 percent) of the EAs were potentially not in
compliance with their Federal tax obligations and did not self-disclose the information when they
filed for renewal.
In addition, IRS regulations state that persons with felony convictions may not be eligible to
become EAs. In 2002, the IRS agreed with an outside consulting firm’s recommendation that all
EA candidates undergo a criminal Federal Bureau of Investigation background check; however,
the OPR has not yet implemented a process to verify that candidates do not have the types of
felony convictions that could render them ineligible for an EA license.
The OPR’s current enrollment process for former IRS employees is time consuming and
subjective. By licensing former employees using subjective criteria, the OPR does not have
assurance that former employees have the minimal technical skills required of all other EAs for
all areas of tax administration. In addition, because the criteria have changed, the IRS may have
unfairly treated former employees denied an EA license under the old criteria who would qualify
under the new criteria. Finally, IRS databases do not record EA data consistently.

Recommendations
We recommended the Director, OPR, implement processes for (1) conducting criminal
background checks on persons who apply to become EAs, before approving their EA licenses,
and (2) identifying EAs who are not compliant with their Federal tax obligations (both individual
and business obligations) and addressing the noncompliance issues. We also recommended the
Director, OPR, revise the Application for Renewal of Enrollment to Practice Before the Internal
Revenue Service (Form 8554) to include Employer Identification Numbers so the IRS can verify
whether EAs are compliant with their business and employment tax obligations. Further, we
recommended the Director, OPR, require that all persons take the Special Enrollment
Examination and cease allowing former IRS employees to become EAs based on experience.
Finally, we recommended the Director, OPR, make correcting entries in the IRS database for the
errors we identified and submit a request for computer programming changes to ensure
appropriate IRS databases are updated with information on EAs who have failed to renew their
licenses.

Response
IRS management agreed with our recommendations. The OPR will work with the Treasury
Inspector General for Tax Administration Office of Investigations to determine if criminal
background checks can be added to the tasks it performs and will revise Form 8554 to include
the EA’s Employer Identification Number. The OPR will continue to pursue the use of a unique
identification number for tax practitioners to identify tax noncompliance and will conduct
random sampling of all practitioners to review their tax compliance. In addition, the OPR will
                                                                                                2
                 The Office of Professional Responsibility Does Not Always Ensure
                 Enrolled Agents Are Qualified, and System Limitations Prevented
                            Identification of Ineligible Representatives


continue to conduct a study to assess the pros and cons of changing the regulation that permits
the Director, OPR, to grant enrollment to former IRS employees by virtue of past service and
technical experience in the IRS. The OPR is working with the computer programmers to refine
the data that are currently exchanged between the Enrolled Practitioner Program System and
Centralized Authorization File1 so they will include the EA’s status. Finally, the OPR will
provide the Centralized Authorization unit with a list of the 59 EAs in terminated status we
identified and request that their Centralized Authorization File accounts be placed in “Ineligible
Status.” Management’s complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Acting Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




1
 The Enrolled Practitioner Program System is the IRS database that stores information on EAs. The Centralized
Authorization File is an IRS database that stores information on persons that are allowed to represent taxpayers as
powers of attorney.
                                                                                                                      3
                    The Office of Professional Responsibility Does Not Always Ensure
                    Enrolled Agents Are Qualified, and System Limitations Prevented
                               Identification of Ineligible Representatives




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Criminal Background Checks Were Not Conducted for
          Enrolled Agent Applicants, and Tax Compliance Was Not Checked
          for Enrolled Agents Renewing Their Licenses.............................................Page 3
                    Recommendations 1 through 3:..........................................Page 5

          The Enrollment Process for Former Internal Revenue Service
          Employees Is Inconsistent and Time Consuming.........................................Page 6
                    Recommendation 4:.........................................................Page 10

          The Internal Revenue Service Databases Do Not Record Data
          Consistently for Enrolled Agents Who Fail to Renew Their Licenses.........Page 10
                    Recommendation 5:.........................................................Page 11

                    Recommendation 6:.........................................................Page 12


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 13
          Appendix II – Major Contributors to This Report ........................................Page 16
          Appendix III – Report Distribution List .......................................................Page 17
          Appendix IV – Outcome Measures...............................................................Page 18
          Appendix V – Management’s Response to the Draft Report .......................Page 19
       The Office of Professional Responsibility Does Not Always Ensure
       Enrolled Agents Are Qualified, and System Limitations Prevented
                  Identification of Ineligible Representatives




                        Abbreviations

CAF                 Centralized Authorization File
EA                  Enrolled Agent
EPPS                Enrolled Practitioner Program System
FY                  Fiscal Year
IRS                 Internal Revenue Service
OPR                 Office of Professional Responsibility
                 The Office of Professional Responsibility Does Not Always Ensure
                 Enrolled Agents Are Qualified, and System Limitations Prevented
                            Identification of Ineligible Representatives




                                             Background

An Enrolled Agent (EA) is a Federally authorized tax practitioner who has technical expertise in
the field of taxation. EAs, along with Certified Public Accountants and attorneys, are allowed to
represent taxpayers before the Internal Revenue Service (IRS). This means they can act as a
power of attorney1 to represent a taxpayer at hearings or meetings with the IRS, prepare and file
documents for a taxpayer, and communicate directly with the IRS on behalf of a taxpayer to
resolve tax liabilities and other tax obligations. EAs are licensed by the IRS and are under the
jurisdiction of the IRS Office of Professional Responsibility (OPR). One difference between
EAs and return preparers is that there are no special licensing requirements for persons who only
prepare tax returns. A return preparer who is not licensed as an EA can be any individual other
than an attorney, Certified Public Accountant, EA, or enrolled actuary who prepares a taxpayer’s
return.
Currently, there are approximately 40,000 active EAs. There are two ways a person can become
an EA: by passing a special examination or by virtue of past experience in certain job series with
the IRS. Once a year, the IRS administered a Special Enrollment Examination to test a person’s
competencies in all facets of tax law. However, in January 2006, the IRS outsourced the Special
Enrollment Examination to a private contractor that plans to begin administering the test in
October 2006.
Former IRS employees may apply to become EAs without having to take the Special Enrollment
Examination, if they held certain positions within the IRS. There are two types of designations
the OPR grants former IRS employees: unlimited (unrestricted) enrollment or limited
enrollment. The OPR grants limited enrollment if the former IRS employee had specialized
knowledge in one area but not the overall technical knowledge required for unlimited enrollment.
EAs must renew their licenses every 3 years and pay an $80 renewal fee.2 If an EA fails to
renew his or her license, the OPR will place the EA in inactive status. If an EA’s license is not
renewed after the next 3-year period, the EA will be placed in terminated status.
An OPR office in Detroit, Michigan, processes all initial EA applications, EA renewals, and
applications for the Special Enrollment Examination. Figure 1 shows the volume of applications
processed by employees at the Detroit Computing Center3 in Detroit, Michigan.


1
  A power of attorney is an individual recognized by the IRS to act on behalf of a taxpayer. A taxpayer designates a
power of attorney by using a Power of Attorney and Declaration of Representative (Form 2848).
2
  The Department of the Treasury and the IRS published a notice of proposed rulemaking that would increase the
renewal fee to $125 (71 F.R. 51179 August 29, 2006).
3
  IRS Computing Centers support tax processing and information management through a data processing and
telecommunications infrastructure.
                                                                                                            Page 1
              The Office of Professional Responsibility Does Not Always Ensure
              Enrolled Agents Are Qualified, and System Limitations Prevented
                         Identification of Ineligible Representatives


               Figure 1: Inventory Processed in Fiscal Year (FY) 2005

                                            10,952         11,387
                  12,000
                  10,000
                   8,000
                   6,000
                   4,000       2,296
                                                                                      Applications
                   2,000
                       0
                              Initial     Renewals       Special
                           Applications                 Enrollment
                                                       Examination


                    Source: Enrolled Practitioner Program Current Inventory Report,
                    dated September 24, 2005.

This review was performed at the OPR offices in the IRS National Headquarters in
Washington, D.C., and at the Detroit Computing Center during the period January through
July 2006. The audit was conducted in accordance with Government Auditing Standards.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




                                                                                                     Page 2
                 The Office of Professional Responsibility Does Not Always Ensure
                 Enrolled Agents Are Qualified, and System Limitations Prevented
                            Identification of Ineligible Representatives




                                     Results of Review

Criminal Background Checks Were Not Conducted for Enrolled Agent
Applicants, and Tax Compliance Was Not Checked for Enrolled
Agents Renewing Their Licenses
EAs are persons authorized by the IRS OPR to represent taxpayers in resolving their tax issues
with the IRS. Therefore, it is important for the OPR to ensure taxpayers are protected from EAs
who have not complied with their own Federal tax obligations or who may have criminal
records. Although the OPR verifies tax compliance when individuals submit their initial EA
applications, it relies on the EAs’ self-disclosure statements when processing applications for
renewal of EA authorizations. Our review of a random sample of 51 EAs who had renewed their
licenses during 2005 determined that 3 (5.88 percent) were potentially not in compliance with
their Federal tax obligations.
In addition, IRS regulations state that persons with felony convictions may not be eligible to
become EAs. In 2002, the IRS agreed with an outside consulting firm’s recommendation that all
EA candidates undergo a criminal Federal Bureau of Investigation background check; however,
the OPR has not yet implemented a process to verify that candidates do not have the types of
felony convictions that could render them ineligible for an EA license.

Criminal background checks were not conducted on EA applicants
Each year, the OPR processes applications from the approximately 2,000 persons who either
pass the Special Enrollment Examination or are former IRS employees. While the OPR reviews
tax compliance of these applicants, it does not conduct criminal background checks to determine
whether potential EAs have felony convictions.
IRS regulations4 clearly state that persons with felony convictions may be censured, suspended,
or disbarred from practice before the IRS. Because EAs have access to taxpayers’ Social
Security Numbers, Employer Identification Numbers,5 bank account numbers, and other personal
information, there is a risk that unscrupulous preparers could engage in identity theft activities.
Therefore, it is important that the IRS limit enrollment to those persons who can pass a criminal
background check.



4
 Treasury Department Circular No. 230 (Rev. 6-2005), Section 10.51.
5
 An Employer Identification Number, also known as a Federal Identification Number, is used to identify a business
entity.
                                                                                                          Page 3
                   The Office of Professional Responsibility Does Not Always Ensure
                   Enrolled Agents Are Qualified, and System Limitations Prevented
                              Identification of Ineligible Representatives


OPR management advised us the cost of a criminal background check is approximately $35 per
person. Because the OPR charges user fees for processing an EA application, it could pass on
the cost of criminal background checks to candidates who apply to become EAs. The American
Bar Association and many States that license Certified Public Accountants require applicants to
pass criminal background checks.
During 2001 and 2002, the IRS contracted with an independent consulting firm to review the
OPR’s operation. In January 2002, the consultant recommended the OPR require that all
candidates undergo a criminal Federal Bureau of Investigation background check. The IRS
agreed with the recommendation and considered contracting out the requirement for criminal
background checks, but this action had not been taken by the end of our fieldwork. OPR
management advised us this action was dependent on other recommendations made by the
consultant, which were not adopted. Also, the OPR office was working on higher priority
projects (such as the replacement of its information system and outsourcing of the enrollment
examination) and did not have the resources to implement the recommendation to conduct
background investigations. However, some of the higher priority projects have been completed
and OPR management believes it may now have the resources to consider this recommendation.

The OPR did not conduct tax checks before renewing the licenses of EAs
The OPR requires all EAs to renew their licenses every 3 years and pay a fee of $80. EAs are
required to certify (self-disclose) the following by checking a box on the renewal form:6
      •    They have not been convicted of any violation of law (excluding minor traffic violations).
      •    They were not disciplined for alleged misconduct by any professional body or licensing
           authority.
      •    They complied with all of their individual and business Federal tax obligations during the
           current year and preceding 3 years.
Unlike initial applications, the OPR generally does not conduct any background research on
renewal applications and relies on EAs to self-disclose their compliance with the requirements
shown above. An exception is made for applications and renewal forms of EAs who
self-disclose they have been sanctioned by a State or Federal Government regulatory authority.
We selected a random sample of 51 EAs who had renewed their licenses during 2005 to
determine if they were compliant with their Federal tax obligations. Of these 51 EAs,
3 (5.88 percent) had potential noncompliance tax issues. The three EAs in our sample did not
disclose on their renewal forms that they were not in compliance with their tax requirements.
Because the OPR does not verify tax compliance, it renewed the licenses of the three EAs but did
not identify the potential tax noncompliance issues. Based on the results from our sample, we


6
    Application for Renewal of Enrollment to Practice Before the Internal Revenue Service (Form 8554).
                                                                                                         Page 4
                   The Office of Professional Responsibility Does Not Always Ensure
                   Enrolled Agents Are Qualified, and System Limitations Prevented
                              Identification of Ineligible Representatives


estimate 644 EAs who renewed their licenses in 2005 may not have complied with their personal
Federal tax obligations.
We were unable to verify whether the EAs were in compliance with their business tax
obligations because the OPR does not require EAs to supply the Employer Identification
Numbers of their businesses on the renewal form. EAs who operate as corporations or
partnerships, or who have employees, must use Employer Identification Numbers rather than
their Social Security Numbers when filing business tax returns.
To protect the quality of representation provided to taxpayers, the OPR can sanction, suspend,
disbar, or censure EAs who fail to comply with their tax responsibilities.7 Consequently, during
the renewal cycle, the OPR should identify EAs who have not complied with their personal and
business tax obligations and should appropriately address any noncompliance issues to ensure
the EAs are brought back into compliance.

Recommendations
Recommendation 1: The Director, OPR, should implement a process to conduct criminal
background checks on persons who apply to become EAs, before approving their EA licenses.
      Management’s Response: IRS management agreed with the recommendation and will
      work with the Treasury Inspector General for Tax Administration Office of Investigations to
      determine if criminal background checks can be added to the tasks it performs. If this is not
      possible, IRS management will consider alternative processes, taking into account resource
      constraints.
Recommendation 2: The Director, OPR, should revise the renewal form (Form 8554) to
require that EAs provide their Employer Identification Numbers so the IRS can verify
compliance with their business and employment tax obligations.
      Management’s Response: IRS management agreed with the recommendation and will
      revise the Form 8554 to require that EAs provide their Employer Identification Numbers.
Recommendation 3: The Director, OPR, should develop a process and guidelines for
identifying EAs who are not compliant with their Federal tax obligations (both individual and
any business obligations) when they submit their renewal forms and should address the
noncompliance issues.
      Management’s Response: IRS management agreed with the recommendation and will
      continue to pursue the use of a Preparer Tax Identification Number to identify tax
      noncompliance among tax professionals. In the interim, IRS management will continue to



7
    Treasury Department Circular No. 230 (Rev. 6-2005), Section 10.51.
                                                                                             Page 5
                 The Office of Professional Responsibility Does Not Always Ensure
                 Enrolled Agents Are Qualified, and System Limitations Prevented
                            Identification of Ineligible Representatives


    conduct random sampling of all practitioners to review their tax compliance. EAs will be
    randomly sampled after each renewal cycle.

The Enrollment Process for Former Internal Revenue Service
Employees Is Inconsistent and Time Consuming
The IRS requires persons who are not former IRS employees to demonstrate their competence by
passing a comprehensive test, the Special Enrollment Examination. When the IRS administered
the Examination prior to 2006, it consisted of four tax areas: (1) individual income tax; (2) sole
proprietorships and partnerships; (3) corporations including S corporations,8 fiduciaries, estate
and gift tax returns, and trusts; and (4) ethics, record keeping procedures, appeal procedures,
exempt organizations, retirement plans, practitioner penalty provisions, research materials, and
collection matters.
The OPR allows certain former IRS employees to become EAs without taking the Special
Enrollment Examination. The OPR bases this decision primarily on the former employee’s prior
job experience as shown in standardized position descriptions, as well as input on the employee’s
performance from his or her former supervisor. Former IRS employees generally must have a
minimum of 5 continuous years with the IRS and show they regularly engaged in applying and
interpreting the Internal Revenue Code and Regulations. Former IRS employees must submit
their applications for enrollment within 3 years of separation from the IRS. Since October 2002,
the OPR has licensed approximately 1,331 former IRS employees as EAs.
The OPR office in Washington, D.C., consisting of attorneys and paralegals, reviews all
applications from former IRS employees. The OPR may grant full (unlimited) enrollment status;
grant limited enrollment status that allows a former IRS employee to represent taxpayers only in
certain types of tax matters, such as collection issues; or deny a former IRS employee’s
application.
The OPR has not developed an Internal Revenue Manual section to document how to process
applications from former IRS employees. The Internal Revenue Manual is the single official
source for IRS policies, directives, guidelines, and procedures for use by IRS employees in
processing workload. Most information in the Internal Revenue Manual is also available to the
public and tax practitioners on the IRS web site (IRS.gov).9 Instead of an official manual, the
OPR uses procedures it has developed internally to determine if former IRS employees qualify to
become EAs. However, over time, the OPR has changed its procedures from those used by the
former office of the Director of Practice and has begun allowing full enrollment status to certain
positions that were previously granted limited enrollment or were denied enrollment. The OPR

8
  An eligible domestic corporation can avoid double taxation to shareholders and to the corporation by electing to be
treated as an S corporation.
9
  Some information in the Internal Revenue Manual is classified as “official use only” and is not available to the
public.
                                                                                                             Page 6
                The OHce of Professional Responsibility Does Afot Always Ensure
            '
                Enrolled Agents Are Qualified, and System Limitations Prevented
                           Identifration of Ineligible Representatives


advised us it uses judgment to determine which positions within the IRS qualify for enrollment
and it does not have written documentation of the basis for the decision-making process.
To evaluate the OPR's process, we reviewed applications fiom former IRS employees who were
granted full status, granted limited status, or denied enrollment during FYs 2002 through 2005.
We reviewed a sample of 50 former IRS employees granted full (unlimited) enrollment and
identified 10 persons (20 percent) that appeared either to lack the technical expertise based on
OPR procedures or to have had ethical issues when they were employed by the IRS. It also
appears the OPR's treatment of former IRS employees was not always objective or consistent.
We identified the following examples in our sample:




In addition, we reviewed the applications of all 47 former IRS employees who were denied
enrollment by the OPR. In the majority of cases, the OPR denied enrollment because it
determined the former IRS employees lacked technical expertise or because of an integrity issue,
such as violating the IRS' Unauthorized Access of Federal Tax Information policy. However,
7 (15 percent) of 47 persons were denied enrollment for lack of technical expertise based on
OPR procedures in place at the time of the applications. It appears these seven persons would
now qualify for either full or limited enrollment based on current OPR procedures.
The OPR's process to enroll former IRS employees is highly subjective and can lead to
inconsistent treatment of former IRS employees. In addition, the OPR's process may not ensure
all EAs are sufficiently qualified to represent taxpayers in all tax matters. We could not verify
whether any former IRS employees possessed the knowledge required in all four parts of the
Special Enrollment Examination by reviewing position descriptions. We believe a position
description is not adequate and should not be used to assess a person's overall knowledge of tax
law and procedures. For example, the OPR grants full enrollment status to former special agents
with the Criminal Investigation function and revenue officers. However, these positions are
highly specialized. Revenue officers possess expertise in collection matters, while special agents
are law enforcement officials who conduct criminal investigations involving tax fraud. After
reviewing the position descriptions for special agents and revenue officers, we concluded former
IRS employees in these two positions may not have had exposure to or expertise in all four areas
of the Special Enrollment Examination.



                                                                                           Page 7
               The Office of Professional Responsibility Does Not Always Ensure
               Enrolled Agents Are Qualified, and System Limitations Prevented
                          Identification of Ineligible Representatives


The allowance of limited enrollment status for former IRS employees is
inconsistent and cannot be enforced
The second type of EA designation for former IRS employees is a limited enrollment status,
which restricts an EA to representing taxpayers in a specific field(s) of expertise. The limited
enrollment status includes the following areas of expertise:
   •   Collection matters.
   •   Individual income tax matters.
   •   Exempt organization matters.
   •   Employee plans matters.
   •   Engineering and valuation matters.
   •   Estate and gift tax matters.
   •   International tax matters.
We reviewed a sample of applications from 50 former IRS employees granted limited enrollment
and determined 29 were former revenue officers who had been allowed to represent taxpayers
only in collection matters at the time they received their EA licenses. However, on
February 15, 2005, the OPR changed its procedures to allow former revenue officers above a
certain grade level full (unlimited) enrollment status, provided they met other qualifications, such
as satisfactory performance and no disqualifying conduct. We reviewed the revenue officer
position descriptions but could not determine the reason the OPR revised its procedures. It
appeared the revenue officer requirements had not been changed to now incorporate a wider
knowledge of issues beyond collection matters. We also found several inconsistencies in the
OPR’s determinations involving former IRS employees who were revenue agents. OPR
management advised us they had updated the criteria for those former IRS employees who
qualified for unlimited enrollment as a result of periodically reviewing current IRS position
descriptions and changing the definition from strictly technical knowledge to broader criteria
based on the type of IRS experience employees may have gained. OPR management believed its
revised criteria was appropriate to qualify former IRS employees to represent taxpayers.
Another difficulty with the limited enrollment status is the OPR does not have a practical way to
enforce the limited enrollment status and monitor the type of tax issues in which EAs engage. A
taxpayer may be unaware that the EA he or she has hired can represent the taxpayer in only a
limited capacity. When taxpayers engage an EA to represent them, they must sign a Form 2848
designating the EA as their power of attorney. However, Form 2848 does not indicate whether
the EA has limited status and can represent taxpayers in only certain types of tax matters.
To verify that a tax practitioner has a valid power of attorney to represent a taxpayer, IRS
employees query a database, the Centralized Authorization File (CAF); however, this database
does not identify EAs who are limited to representing taxpayers in only certain types of tax
matters. In addition, the limited enrollment status is not widely known among IRS employees
because it is not mentioned in any of the Internal Revenue Manuals for Collection, Examination,

                                                                                             Page 8
                The Office of Professional Responsibility Does Not Always Ensure
                Enrolled Agents Are Qualified, and System Limitations Prevented
                           Identification of Ineligible Representatives


or Appeals function employees. Consequently, current IRS employees may not be aware they
should not be working with and disclosing taxpayer information to certain EAs with the limited
status. OPR management advised us they had recognized these limitations and were planning to
phase out the limited enrollment status and either grant full enrollment or deny applications in
the future.

The time to process applications from former IRS employees should raise
concern within the OPR
The OPR has established a performance goal of 90 calendar days in which to process initial EA
applications. We calculated the time it took the OPR to process the applications of the former
IRS employees in our 3 samples and found it took the OPR an average of 6 months to process
the applications of the 100 former IRS employees granted full or limited enrollment.
In addition, it took the OPR an average of 329 calendar days to process the applications of the
47 former IRS employees whose applications for enrollment were denied. Persons denied
enrollment by the Director, OPR, may appeal. The authority to decide enrollment appeals was
delegated to the Associate Chief Counsel (Procedure and Administration) on April 9, 2004.10 In
our sample, 6 former IRS employees used the appeal process, which took an average of
235 calendar days. Overall, it took the OPR an average of 573 calendar days to deny the
applications from these 6 former IRS employees. OPR management advised us former IRS
employee applications will take longer to process because the OPR field office conducts
additional research, including reviewing position descriptions and sometimes contacting former
managers, before approving the applications. In addition, all former IRS employee applications
are reviewed in the OPR Washington, D.C., office. Regarding the length of time to process
denials, OPR management advised us they will allow former IRS employees additional time to
address deficiencies so they could then qualify for an EA license.
Based on these various factors, we believe the OPR’s current enrollment process for former IRS
employees is time consuming and too subjective. By licensing former IRS employees using
subjective criteria applied on a case-by-case basis and without documentation of the basis for the
decision, the OPR does not have assurance that these former IRS employees have the broad
range of technical skills required for full enrollment. Consequently, the EA license does not give
taxpayers assurance that the EAs have experience in their particular tax matter(s) or have the
technical aptitude required by IRS regulations. OPR management believes it is the responsibility
of EAs, as professionals, to decline engagements if they do not have the ability to perform them.
The IRS also does not have a practical method for enforcing limited enrollment status, such as
assuring that EAs will represent taxpayers only in the tax matters within their limited enrollment
authority. In addition, because the OPR criteria have changed, the IRS may have unfairly treated


10
  Prior to April 2004, the Senior Counselor to the Commissioner reviewed the OPR Director’s decision and made
the final agency determination regarding enrollment appeals.
                                                                                                        Page 9
               The Office of Professional Responsibility Does Not Always Ensure
               Enrolled Agents Are Qualified, and System Limitations Prevented
                          Identification of Ineligible Representatives


former employees who were denied an EA license under the old criteria but may qualify for full
enrollment under the new criteria.
A private consulting firm had also reviewed the OPR’s process for enrolling former IRS
employees during 2001 and 2002 and found the OPR’s process was inefficient. The consulting
firm recommended the IRS require that all applicants pass the Special Enrollment Examination
before they are allowed to represent taxpayers. The consulting firm also recommended the OPR
eliminate the limited enrollment status for former IRS employees. At that time, both the former
Director of Practice and the former IRS Commissioner decided not to implement the consulting
firm’s recommendation to require former IRS employees to pass the Special Enrollment
Examination, citing harm to current IRS employees. However, as previously discussed, the
former Director of Practice applied more restrictive criteria, which significantly limited the
number of former IRS employees who qualified for an EA license. With the expanded criteria
currently being used, we believe it is in the best interest of taxpayers for the OPR to reconsider
the consulting firm’s recommendations to require all persons to take and pass the Special
Enrollment Examination and to eliminate the limited enrollment status.

Recommendation
Recommendation 4: The Director, OPR, should cease allowing former IRS employees to
become EAs based on experience and should require all persons to take and pass the Special
Enrollment Examination before being granted an EA license.
   Management’s Response: IRS management agreed with the recommendation. Because
   this will require a change to the regulations, the OPR will conduct a study to assess the pros
   and cons of implementation, including business unit feedback. In the interim, the IRS will
   review its current procedures and make appropriate adjustments.

The Internal Revenue Service Databases Do Not Record Data
Consistently for Enrolled Agents Who Fail to Renew Their Licenses
EAs are required to renew their licenses every 3 years. If an EA fails to file the renewal form
and pay the $80 fee, the OPR does not automatically place the EA in terminated status on its
database, the Enrolled Practitioner Program System (EPPS). If an EA fails to renew his or her
license, the OPR will place the EA in inactive status, which means the EA is not eligible to
represent taxpayers during this time. If an EA fails to renew his or her license after the next
3-year period, the EA will be placed in terminated status.
While the EPPS is used by the OPR to maintain information on EAs, the IRS also has a separate
database for all powers of attorney, the CAF. IRS employees use the CAF (not the EPPS) to
determine if a taxpayer has authorized a power of attorney to act on his or her behalf. The CAF
also identifies powers of attorney who have been disbarred and who are not allowed to represent
taxpayers. Due to disclosure rules, IRS employees must verify that a person has a valid
                                                                                           Page 10
                 The Office of Professional Responsibility Does Not Always Ensure
                 Enrolled Agents Are Qualified, and System Limitations Prevented
                            Identification of Ineligible Representatives


Form 2848 on file before they discuss the taxpayer’s account. However, as stated earlier, the
Form 2848 does not indicate whether the EA is in good standing. As a result, as long as the
taxpayer lists a person portraying himself or herself as an EA on the Form 2848, the CAF will
indicate the person is representing the taxpayer and IRS employees will believe they are dealing
with a licensed EA.
The CAF does not have an interface with the EPPS through which to exchange data on
terminated EAs and does not have a field to show inactive or terminated EA status.
Consequently, inactive or terminated status EAs could be listed on the CAF as being in good
standing, although they should not be representing taxpayers because they have not renewed
their licenses with the OPR. We identified this deficiency in a prior audit report in
August 2004.11
We selected a random sample of 130 EAs who were placed in terminated status during FYs 2002
through 2005 to determine if they were listed in good standing on the CAF. Of the 130 EAs
sampled, 59 (45.38 percent) were listed on the CAF in good standing, although they had failed to
comply with the OPR’s renewal requirements and did not have valid EA licenses. We estimate
3,595 EAs who have lost their licenses since FY 2002 are not shown as censured on the CAF.
Because the IRS has separate computer systems that do not share all pertinent information,
inactive or terminated status EAs could represent taxpayers without IRS employees or the
taxpayers knowing the true status of the EAs.

Recommendations
Recommendation 5: The Director, OPR, should submit a Request for Information Services12
so the CAF can interface with the EPPS to reflect EAs who failed to renew their licenses.
     Management’s Response: IRS management agreed with the recommendation. The
     OPR will work with the computer programmers for the EPPS and CAF, as well as the
     representative from the Wage and Investment Division Accounts Management function, to
     refine the data that are exchanged so they will include the EA’s status.




11
   Information on the Centralized Authorization File Is Often Not Accurate or Complete (Reference
Number 2004-10-148, dated August 2004).
12
   The IRS uses a Request for Information Services to request programming changes or updates to existing computer
systems.




                                                                                                        Page 11
             The Office of Professional Responsibility Does Not Always Ensure
             Enrolled Agents Are Qualified, and System Limitations Prevented
                        Identification of Ineligible Representatives


Recommendation 6: The Director, OPR, should ensure the CAF is updated to show a
terminated status for the 59 former EAs we identified in our sample.
   Management’s Response: IRS management agreed with the recommendation and will
   provide the CAF unit with a list of the EAs in terminated status and request that their CAF
   accounts be placed in “Ineligible Status.”




                                                                                        Page 12
                   The Office of Professional Responsibility Does Not Always Ensure
                   Enrolled Agents Are Qualified, and System Limitations Prevented
                              Identification of Ineligible Representatives


                                                                                    Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the effectiveness of the OPR’s
administration of the EA Practitioner Program. To accomplish this objective, we:
I.         Determined if the OPR adequately and timely processed applications from persons who
           took and passed the EA Special Enrollment Examination.
           A. Obtained from the IRS EPPS1 database a computer extract showing the number of
              persons who took the Special Enrollment Examination and the number of persons
              who applied to become EAs in FY 2005. We conducted audit tests by reviewing the
              data on a Microsoft Access database and determined the data provided by the IRS
              were reliable.
           B. Evaluated the OPR’s enrollment process for new applicants who had passed the
              Special Enrollment Examination by reviewing a random sample of 50 of the
              1,586 persons who applied to become EAs in FY 2005. We used a 90 percent
              confidence interval, a +7 percent precision rate, and an expected error rate of
              10 percent to determine the sample size.
               1. Reviewed the case files to determine if the OPR properly recorded its
                  determination and if there was supporting documentation when EA status was not
                  granted.
               2. Determined if the OPR conducted tax checks and criminal background checks on
                  persons who applied to become EAs.
               3. Determined the length of time it took the OPR to process the applications of the
                  persons in our random sample and compared the results to the OPR’s performance
                  goal.
II.        Determined if the OPR adequately and timely processed applications from former IRS
           employees who applied to become EAs during FYs 2002 through 2005.
           A. Obtained from the EPPS database a computer extract showing the number of former
              IRS employees who had applied for enrollment since FY 2002. We conducted audit
              tests using a Microsoft Access database and determined the data provided by the IRS
              were reliable.



1
    The EPPS is the IRS database that stores information on EAs.
                                                                                           Page 13
                 The Office of Professional Responsibility Does Not Always Ensure
                 Enrolled Agents Are Qualified, and System Limitations Prevented
                            Identification of Ineligible Representatives


             1. Reviewed 2 separate samples of 50 former IRS employees who were offered full
                and limited enrollment and all 47 former IRS employees denied enrollment during
                FYs 2002 through 2005 (for a total of 147 of 1,378 former IRS employees). We
                used a 90 percent confidence interval, a +7 percent precision rate, and an expected
                error rate of 10 percent to determine the sample sizes.
             2. Determined the length of time it took the OPR to process applications from
                former IRS employees and if it met the OPR’s 90-day performance goal.
             3. Determined if there was justification for the OPR’s determination for granting full
                enrollment, granting limited enrollment, or denying the application from the
                former IRS employees.
        B. Evaluated the regulations, procedures, and resources to process applications from
           former IRS employees.
III.    Determined if the OPR was adequately conducting the renewal process for EAs that had
        renewed their licenses.
        A. Obtained from the EPPS database a computer extract of EAs in active, inactive, and
           terminated status. We conducted audit tests using a Microsoft Access database and
           determined the data provided by the IRS were reliable.
        B. Reviewed a random sample of 130 of the 7,920 EAs who had failed to renew their
           licenses and had been placed in terminated status during FYs 2002 through 2005 to
           determine if they had valid powers of attorney on the CAF.2 We used a 90 percent
           confidence interval, a +7 percent precision rate, and an expected error rate of
           10 percent to determine the sample size.
        C. Evaluated the OPR’s renewal process by reviewing a random sample of 51 of the
           10,935 EAs who had renewed their licenses in 2005 to determine if they were
           compliant with their tax obligations. We used a 90 percent confidence interval, a
           +7 percent precision rate, and an expected error rate of 10 percent to determine the
           sample size.
IV.     Reviewed the outsourcing of the Special Enrollment Examination to a commercial
        contractor to determine the level of service provided to the public and the cost to the
        Federal Government.



2
 The CAF is an IRS database that stores information on persons that are allowed to represent taxpayers as powers of
attorney.




                                                                                                         Page 14
       The Office of Professional Responsibility Does Not Always Ensure
       Enrolled Agents Are Qualified, and System Limitations Prevented
                  Identification of Ineligible Representatives


A. Reviewed the Federal Government’s current process of administering the Special
   Enrollment Examination and the costs incurred by the Federal Government.
B. Reviewed the proposal to outsource the test including user fees, the type and length of
   contract, and the statement of work. We determined if the Federal Government
   would be responsible for any actions or costs after outsourcing the Examination.
C. Reviewed the winning contractor’s proposal to determine the level of service and
   costs passed on to the Federal Government.




                                                                                  Page 15
             The Office of Professional Responsibility Does Not Always Ensure
             Enrolled Agents Are Qualified, and System Limitations Prevented
                        Identification of Ineligible Representatives


                                                                             Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Nancy A. Nakamura, Acting Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Carl L. Aley, Director
Michael E. McKenney, Director
Aaron Foote, Audit Manager
Daniel M. Quinn, Acting Audit Manager
Janice M. Pryor, Lead Auditor
Stephanie K. Foster, Senior Auditor
Mike J. Della Ripa, Auditor
Angela Garner, Auditor




                                                                                    Page 16
              The Office of Professional Responsibility Does Not Always Ensure
              Enrolled Agents Are Qualified, and System Limitations Prevented
                         Identification of Ineligible Representatives


                                                                         Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Office of Professional Responsibility SE: OPR




                                                                               Page 17
                   The Office of Professional Responsibility Does Not Always Ensure
                   Enrolled Agents Are Qualified, and System Limitations Prevented
                              Identification of Ineligible Representatives


                                                                                   Appendix IV

                                      Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•     Reliability of Information – Potential; 644 EA accounts (see page 3).

Methodology Used to Measure the Reported Benefit:
We obtained from the EPPS1 an extract of EAs who had renewed their licenses during 2005 to
determine if they were compliant with their Federal tax obligations. We selected a random
sample of 51 of the 10,935 EAs to review their tax compliance. In our sampling methodology,
we used a 90 percent confidence interval, a 10 percent expected error rate, and a +7 percent
precision rate. Three (5.88 percent) of the EAs in our sample were potentially not compliant
with their Federal tax obligations, but the OPR had not addressed the noncompliance issues. We
estimate 644 EAs who renewed their licenses in 2005 may not have complied with their Federal
tax obligations. The OPR did not identify potential tax noncompliance when it renewed the
licenses of the EAs.

Type and Value of Outcome Measure:
•     Reliability of Information – Potential; 3,595 taxpayer accounts affected (see page 10).

Methodology Used to Measure the Reported Benefit:
We obtained from the EPPS an extract of EAs who had lost their licenses during FYs 2002
through 2005 because they had not complied with the OPR’s renewal requirements. We selected
a random sample of 130 of the 7,920 unlicensed EAs (in terminated status) to determine if they
were shown as eligible to represent taxpayers before the IRS. We found 59 (45.38 percent) of
130 unlicensed EAs were listed on the CAF (the IRS database for powers of attorney) in good
standing. We estimate 3,595 unlicensed EAs have valid powers of attorney and are eligible to
represent taxpayers without the taxpayers or the IRS being aware of this situation. In our
sampling methodology, we used a 90 percent confidence interval, a 10 percent expected error
rate, and a +7 percent precision rate.


1
    The EPPS is the IRS database that stores information on EAs.
                                                                                            Page 18
   The Office of Professional Responsibility Does Not Always Ensure
   Enrolled Agents Are Qualified, and System Limitations Prevented
              Identification of Ineligible Representatives


                                                      Appendix V

Management’s Response to the Draft Report




                                                             Page 19
The Office of Professional Responsibility Does Not Always Ensure
Enrolled Agents Are Qualified, and System Limitations Prevented
           Identification of Ineligible Representatives




                                                          Page 20
The Office of Professional Responsibility Does Not Always Ensure
Enrolled Agents Are Qualified, and System Limitations Prevented
           Identification of Ineligible Representatives




                                                          Page 21
The Office of Professional Responsibility Does Not Always Ensure
Enrolled Agents Are Qualified, and System Limitations Prevented
           Identification of Ineligible Representatives




                                                          Page 22
